CERTIFICATE OF COMPLIANCE WITH WORD COUNT
No. 20 - 1348
TRUE HARMONY et al.,
v.

Petitioner,

STATE DEPT. OF JUSTICE OF STATE OF CALIFORNIA, et al.,
Respondent.
As required by Supreme Court Rule 33.1(h), I hereby certify that
the word count of this supplement to the petition for writ of certiorari
as measured by the Microsoft Word© word processing software is
2946 words in length.
Dated: May 4, 2021

Respectfully submitted,

__/s/ Jeffrey G. Thomas__
JEFFREY G. THOMAS
201 Wilshire Blvd. Second
Floor
Santa Monica, California
90401
Telephone: 310-650-8326
Attorney at law for True
Harmony, 1130 South Hope
Street Investment Associates
LLC, Ray Haiem and In
Propria Persona
Certificate of Word Count for Petition for Writ of Certiorari
In U. S. Supreme Court – True Harmony v. State Dept. of Justice

